TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Fiscal Year 2006 Statutory Review
                        of Disclosure of Collection Activity
                           With Respect to Joint Returns



                                         August 28, 2006

                              Reference Number: 2006-40-135




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            August 28, 2006


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Fiscal Year 2006 Statutory Review of
                              Disclosure of Collection Activity With Respect to Joint Returns
                              (Audit # 200640001)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is in compliance with Internal Revenue Code Section (I.R.C. §) 6103(e)(8)
 (2000 Supple. 3) related to the disclosure of collection activities to joint filers. The Treasury
 Inspector General for Tax Administration was statutorily required to conduct this audit.

 Synopsis
 IRS policies and procedures provide employees with
 sufficient guidance for handling joint filer collection        IRS policies and procedures
 activity information requests. However, we could not        provide employees with sufficient
                                                              guidance for handling joint filer
 determine if the IRS fully complied with                      collection activity information
 I.R.C. § 6103(e)(8) requirements when responding to all                  requests.
 written information requests from joint filers. This is the
 eighth year in which we have reported our inability to
 give an opinion on the IRS’ compliance with the provisions of I.R.C. § 6103(e)(8).
 The Treasury Inspector General for Tax Administration is required under I.R.C. § 7803(d)(1)(B)
 (2000 Supple. 3) to evaluate annually the IRS’ compliance with the joint filer request provisions
 of the law. IRS management information systems do not separately record or monitor joint filer
 requests, and Congress has not explicitly required the IRS to do so. Furthermore, we do not
 recommend the creation of a separate tracking system. Accordingly, we made no
 recommendations in this report.
                       Fiscal Year 2006 Statutory Review of Disclosure of
                        Collection Activity With Respect to Joint Returns




Response
The IRS agreed with the information presented in this report. Management’s complete response
to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                2
                                  Fiscal Year 2006 Statutory Review of Disclosure of
                                   Collection Activity With Respect to Joint Returns




                                              Table of Contents

Background ............................................................................................................Page 1

Results of Review .................................................................................................Page 3
          The Internal Revenue Manual Provides Employees Sufficient
          Guidance for Handling Joint Filer Collection Activity Information
          Requests ..........................................................................................................Page 3
          Compliance With Statutory Requirements for the Disclosure of
          Collection Activity With Respect to Jointly Filed Tax Returns
          Cannot Be Determined....................................................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 5
          Appendix II – Major Contributors to This Report ..........................................Page 7
          Appendix III – Report Distribution List .........................................................Page 8
          Appendix IV – Management’s Response to the Draft Report ........................Page 9
           Fiscal Year 2006 Statutory Review of Disclosure of
            Collection Activity With Respect to Joint Returns




                    Abbreviations

I.R.C. §         Internal Revenue Code Section
IRS              Internal Revenue Service
SB/SE            Small Business/Self-Employed
TBOR2            Taxpayer Bill of Rights 2
TIGTA            Treasury Inspector General for Tax Administration
W&I              Wage and Investment
                            Fiscal Year 2006 Statutory Review of Disclosure of
                             Collection Activity With Respect to Joint Returns




                                             Background

The Taxpayer Bill of Rights 2 (TBOR2)1 added Internal Revenue Code Section (I.R.C. §)
6103(e)(8) (2000 Supple. 3), which gives joint filer taxpayers who are no longer married or no
longer reside in the same household the right to request information regarding the Internal
Revenue Service’s (IRS) efforts to collect delinquent taxes on their joint return liabilities.
I.R.C. § 6103(e)(8) requires the IRS to provide, in writing, collection activity information to joint
filers if they send in a written request. After passage of the TBOR2, the IRS issued procedures
which stated that, if I.R.C. § 6103(e)(8) is not specifically cited in the request, the IRS can
provide either an oral or written response, based upon I.R.C. § 6103(e)(7) (2000 Supple. 3).
The IRS Restructuring and Reform Act of 19982 added I.R.C. § 7803(d)(1)(B) (2000 Supple. 3),
which requires the Treasury Inspector General for Tax
                                                         The TIGTA is required to evaluate
Administration (TIGTA) to review and certify annually       annually IRS compliance with
whether the IRS is complying with the requirements of            I.R.C. § 6103(e)(8).
I.R.C. § 6103(e)(8).
The IRS Restructuring and Reform Act of 1998 also required both the Secretary of the Treasury
and the Joint Committee on Taxation to complete separate studies of the scope and use of
provisions regarding taxpayer confidentiality. The Joint Committee on Taxation issued its study
report in January 2000 and recommended I.R.C. § 6103(e)(8) be amended to allow for oral
information requests in addition to written requests. The Department of the Treasury issued its
study report in October 2000 with a recommendation to eliminate the requirement that joint filer
information requests be in writing. The Department of the Treasury report also suggested that
the TIGTA’s reporting requirement regarding joint filer requests be phased out. There had been
some proposed legislation in 2002 (which did not pass) that would have eliminated the
requirement for taxpayers to provide written requests under I.R.C. § 6103(e)(8).
A study by the IRS concluded there was a low volume of joint filer requests submitted under
I.R.C. § 6103(e)(8). An analysis of 6 former district offices over a 6-month period in Calendar
Year 2000 identified only 5 written joint filer requests. As a result of the study, management in
the Small Business/Self-Employed (SB/SE) and Wage and Investment (W&I) Divisions3 decided
not to develop a management control process to track joint filer information requests.


1
  Pub. L. No. 104-168, 110 Stat. 1452 (1996) (codified as amended in scattered sections of 26 U.S.C.).
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  The SB/SE and W&I Divisions were created by the reorganization of the IRS. Components of the former
Collection and Customer Service Divisions were made part of these Divisions.
                                                                                                              Page 1
                       Fiscal Year 2006 Statutory Review of Disclosure of
                        Collection Activity With Respect to Joint Returns



This review was performed in the IRS National Headquarters in the Office of the Commissioner
and the National Taxpayer Advocate function in Washington, D.C., the SB/SE Division
Headquarters in New Carrollton, Maryland, and the W&I Division Headquarters in Atlanta,
Georgia, during the period April through June 2006. The audit was conducted in accordance
with Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                      Page 2
                        Fiscal Year 2006 Statutory Review of Disclosure of
                         Collection Activity With Respect to Joint Returns




                                 Results of Review

The Internal Revenue Manual Provides Employees Sufficient
Guidance for Handling Joint Filer Collection Activity Information
Requests
The provision of TBOR2 related to joint filers was enacted out of Congressional concern about
the treatment of separated or divorced taxpayers. Representative Nancy L. Johnson
(R-Connecticut), when introducing the TBOR2, stated:
       The subcommittee learned of many instances where divorced taxpayers who had
       previously signed a joint tax return during their marriage were treated harshly when the
       IRS later disputed the accuracy of their joint tax return. In many cases the IRS tried to
       collect the entire amount of taxes from the wife, even though the omitted income or
       erroneous deductions which caused the deficiency were attributable solely to her former
       husband. All too often, the woman, being pursued for payment of taxes due, was not
       aware that a tax return filed during the marriage had been audited or that a deficiency
       had been imposed on the return.
To address this concern, the IRS revised its Internal Revenue Manual to include procedures for
responding to taxpayers who file jointly and submit written requests for information on IRS
collection activity. The Internal Revenue Manual instructs employees to disclose whether any
attempts have been made to collect the tax due from either one of the joint filers, the general
nature of any collection activity, and the amount collected to date.
The Internal Revenue Manual procedures allow employees to provide both oral and written
responses to taxpayers. I.R.C. § 6103(e)(8) requires that taxpayers provide joint filer requests in
writing. IRS procedures require employees to respond in writing only when taxpayers
specifically cite I.R.C. § 6103(e)(8) as their authority for making written requests for collection
information on joint return liabilities.
If the taxpayer’s written request does not specifically cite I.R.C. § 6103(e)(8), the IRS has
directed employees to provide oral responses when practicable. The IRS believes oral responses
provide good customer service to taxpayers because the taxpayers get an immediate answer.




                                                                                             Page 3
                         Fiscal Year 2006 Statutory Review of Disclosure of
                          Collection Activity With Respect to Joint Returns



Compliance With Statutory Requirements for the Disclosure of
Collection Activity With Respect to Jointly Filed Tax Returns Cannot
Be Determined
IRS management information systems do not record or monitor joint filer requests. As such, we
could not determine if the IRS fully complied with I.R.C. § 6103(e)(8) requirements when
responding to all written requests from joint filers because of our inability to identify joint filer
requests received nationwide. During this review, management from the SB/SE and
W&I Divisions commented that the IRS’ position has not changed from last year, and the IRS
does not plan to implement a system to identify or track joint filer requests for collection activity.
In addition, there is no statutory or regulatory requirement for the IRS to develop a separate
system that records or monitors these requests.
We do not recommend the creation of a separate tracking system and are making no
recommendations in this report. This is the eighth year in which we have reported our inability
to provide an opinion on the IRS’ compliance with the provisions of I.R.C. § 6103(e)(8).




                                                                                               Page 4
                            Fiscal Year 2006 Statutory Review of Disclosure of
                             Collection Activity With Respect to Joint Returns



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is in compliance with
I.R.C. § 6103(e)(8) (2000 Supple. 3) related to the disclosure of collection activities to joint
filers. To accomplish our objective, we:
I.      Obtained confirmation from the SB/SE and W&I Divisions that the IRS neither has, nor
        plans to implement, a system or process to identify or track joint filer requests for
        collection information relating to the requirements of I.R.C. § 6103(e)(8).
II.     Interviewed various IRS and TIGTA personnel responsible for the Taxpayer Advocate
        Management Information System,1 the Information Tracking System,2 and the
        Performance and Results Information System 3 to determine if there is a system or process
        that tracks taxpayer complaints relating to the requirements of I.R.C. § 6103(e)(8).
III.    Gathered historical information to determine the Congressional intent in passing
        I.R.C. § 6103(e)(8).
        A. Researched Congressional Committee reports to determine the Congressional intent
           of adding I.R.C. § 6103(e)(8) to the TBOR2,4 thereby granting divorced or separated
           taxpayers the right to receive information regarding the IRS’ efforts to collect
           delinquent taxes on joint tax return liabilities.
        B. Researched Congressional Committee reports to determine the Congressional intent
           of adding I.R.C. § 7803(d)(1)(B) (2000 Supple. 3) to the IRS Restructuring and
           Reform Act of 1998,5 thereby requiring the TIGTA to annually assess the IRS’
           compliance with I.R.C. § 6103(e)(8).




1
  The Taxpayer Advocate Management Information System is an electronic database and case inventory control
system used by Taxpayer Advocate Service employees.
2
  The Information Tracking System is an application used by the IRS to assign, control, and track information and
correspondence. It replaced the Executive Control Management System.
3
  The Performance and Results Information System is a management information system that provides the TIGTA
with the ability to manage and account for the thousands of complaints received and investigations initiated
annually.
4
  Pub. L. No. 104-168, 110 Stat. 1452 (1996) (codified as amended in scattered sections of 26 U.S.C.).
5
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                           Page 5
                      Fiscal Year 2006 Statutory Review of Disclosure of
                       Collection Activity With Respect to Joint Returns



IV.   Obtained information on the actions taken by the IRS in response to I.R.C. § 6103(e)(8)
      to determine the impact on IRS programs.
      A. Reviewed all prior TIGTA audit reports for the Mandatory Joint Filer reviews and
         summarized the audit results, recommendations, and corrective actions taken by the
         IRS.
      B. Reviewed historic Internal Revenue Manual sections to identify any updates made in
         response to I.R.C. § 6103(e)(8).
      C. Reviewed IRWeb (the IRS Intranet) to identify the impact I.R.C. § 6103(e)(8) has had
         on any IRS programs.




                                                                                        Page 6
                      Fiscal Year 2006 Statutory Review of Disclosure of
                       Collection Activity With Respect to Joint Returns



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Audit Manager
Craig Pelletier, Lead Auditor
Gwendolyn Green, Senior Auditor




                                                                                    Page 7
                      Fiscal Year 2006 Statutory Review of Disclosure of
                       Collection Activity With Respect to Joint Returns



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
National Taxpayer Advocate TA
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Director, Communications and Liaison, National Taxpayer Advocate TA:CCL
   Senior Operations Advisor, Wage and Investment Division SE:W:S
   Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL




                                                                                     Page 8
       Fiscal Year 2006 Statutory Review of Disclosure of
        Collection Activity With Respect to Joint Returns



                                                   Appendix IV

Management’s Response to the Draft Report




                                                            Page 9
